      Department of Homeland Security




               The State of Arizona’s Management
            of Urban Areas Security Initiative Grants
                  Awarded During Fiscal Years
                       2007 through 2009




OIG-12-61                                               March 2012
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the State of Arizona’s management of Urban Areas Security
Initiative grants awarded during fiscal years 2007 through 2009. We contracted with the
independent public accounting firm Williams, Adley & Company-DC, LLP to perform
the audit. The contract required that Williams, Adley & Company-DC, LLP perform its
audit according to generally accepted government auditing standards. Williams, Adley &
Company-DC, LLP’s report identifies one reportable condition where State management
of the grant funds could be improved, resulting in two recommendations addressed to the
Assistant Administrator, Grant Programs Directorate. Williams, Adley & Company-DC,
LLP is responsible for the attached auditor’s report dated February 23, 2012, and the
conclusions expressed in the report.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Anne L. Richards
                                      Assistant Inspector General for Audits
February 23, 2012

Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, SW, Building 410
Washington, DC 20528

Dear Ms. Richards:

Williams, Adley & Company-DC, LLP performed an audit of the State of Arizona’s
management of the Department of Homeland Security’s Urban Areas Security Initiative
grants for Fiscal Years 2007 through 2009. The audit was performed in accordance with
our Task Order No. TPD-FIG-BPA-07-013A-0001, dated September 27, 2010. This
report presents audit results and includes recommendations to help improve the State’s
management of the audited Urban Areas Security Initiative grants.

We conducted our audit in accordance with applicable Government Auditing Standards.
The audit was a performance audit as defined by Chapter 1 of the Standards and included
a review and report of program activities with a compliance element. Although this audit
report comments on costs claimed by the State, we did not perform a financial audit, the
purpose of which would be to render an opinion on the State of Arizona’s financial
statements or funds claimed in the Financial Status Reports submitted to the Department
of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of any further assistance, please contact me at 202-371-1397.

Sincerely,

Williams, Adley & Company-DC, LLP




Jocelyn A. Hill
Partner

                        WILLIAMS, ADLEY & COMPANY-DC, LLP
                   Management Consultants/Certified Public Accountants
1030 15th Street, NW, Suite 350 West • Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371-9161
Table of Contents/Abbreviations
Executive Summary ........................................................................................................... 1


Background ........................................................................................................................ 2


Results of Audit ................................................................................................................. 2


     Urban Area Grant Management Practices Were Generally Effective, But Require 

      Some Improvements ................................................................................................. 2

     Exercise Reporting Requirements ................................................................................ 3

     Recommendations ........................................................................................................ 4

     Management Comments and Auditors’ Analysis ........................................................ 4


Appendices

     Appendix A:           Purpose, Scope, and Methodology ....................................................... 6

     Appendix B:           Management Comments to the Draft Report ..................................... 10

     Appendix C:           Homeland Security Grant Program Background ............................... 14

     Appendix D:           Arizona Department of Homeland Security Organization Chart ....... 15

     Appendix E:           Report Distribution ............................................................................ 16


Abbreviations

     DHS                   Department of Homeland Security

     FEMA                  Federal Emergency Management Agency

     FY                    fiscal year

     OIG                   Office of Inspector General

OIG

Department of Homeland Security
Office of Inspector General
Executive Summary
                 Public Law 110-53, Implementing Recommendations of the 9/11
                 Commission Act of 2007, requires the Department of Homeland
                 Security, Office of Inspector General, to audit individual states’
                 management of State Homeland Security Program and Urban
                 Areas Security Initiative grants. This report responds to the
                 reporting requirement for the State of Arizona and its Urban Areas
                 Security Initiative grants.

                 The objectives of the audit were to determine if the State of
                 Arizona distributed and spent Urban Areas Security Initiative grant
                 funds (1) effectively and efficiently and (2) in compliance with
                 applicable federal laws and regulations. We were to also address
                 the extent to which grant funds enhanced the State of Arizona’s
                 ability to prevent, prepare for, protect against, and respond to
                 natural disasters, acts of terrorism, and other man-made disasters.
                 The audit included a review of approximately $48.5 million in
                 Urban Areas Security Initiative grants awarded to the State of
                 Arizona during fiscal years 2007 through 2009.

                 Generally, the State of Arizona did an effective and efficient job of
                 administering the program requirements, distributing grant funds,
                 and ensuring that all available funds were used. The State of
                 Arizona formed strategic planning working groups to ensure that
                 the State strategy and the Urban Areas Security Initiative strategy
                 were in alignment with the target capabilities, and to identify gaps
                 in the strategy and corrective action needed to close the gaps. The
                 State of Arizona monitored performance and measured
                 preparedness improvement. The State of Arizona spent grant
                 funds in accordance with grant requirements and State-established
                 priorities, and allocated funding based on threats, vulnerabilities,
                 capabilities, and priorities.

                 However, we identified one area for improvement: compliance
                 with exercise reporting requirements. Our recommendations call
                 for the Federal Emergency Management Agency (FEMA) to
                 initiate improvements which, when implemented, should help
                 strengthen program management, performance, and oversight.
                 FEMA concurred with the recommendations.


                The State of Arizona’s Management of Urban Areas Security

             Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                         Page 1
Background
                 The Homeland Security Grant Program provides federal funding to
                 help state and local agencies enhance capabilities to prevent,
                 protect against, respond to, and recover from terrorist attacks,
                 major disasters, and other emergencies.

                 The State of Arizona (State) received $95.1 million in Homeland
                 Security Grant Program funds during fiscal years (FY) 2007, 2008,
                 and 2009. This included $48.5 million in Urban Areas Security
                 Initiative grants. Appendix A provides details on the purpose,
                 scope, and methodology for this audit.

                 The Governor of Arizona designated the Arizona Department of
                 Homeland Security as the State Administrative Agency, the entity
                 responsible for administering the Homeland Security Grant
                 Program. The State Administrative Agency is responsible for
                 managing the financial and reporting aspects of the grant programs
                 in accordance with established federal guidelines and allocating
                 funds to local, regional, and other state government agencies.
                 FEMA designated the cities of Phoenix and Tucson as the Urban
                 Areas for the State. The Phoenix and Tucson Urban Area Working
                 Groups are responsible for the programmatic and performance
                 aspects of the grant programs. The Arizona Department of
                 Homeland Security organization is depicted in appendix D.

Results of Audit
     Urban Area Grant Management Practices Were Generally
     Effective, But Require Some Improvements
          Overall, the State Administrative Agency did an efficient and effective job
          of administering the Urban Areas Security Initiative grant program
          requirements, distributing grant funds, and ensuring that all available
          funds were used. The State Administrative Agency formed strategic
          planning working groups to ensure that the State strategy and the Urban
          Areas Security Initiative strategy were in alignment with the target
          capabilities, and to identify gaps in the strategy and corrective action
          needed to close the gaps. The State Administrative Agency monitored
          performance and measured preparedness improvement. The State
          Administrative Agency spent grant funds in accordance with grant
          requirements and State-established priorities, and allocated funding based
          on threats, vulnerabilities, capabilities, and priorities.



                The State of Arizona’s Management of Urban Areas Security

             Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                         Page 2
     However, as demonstrated by the results contained in this report,
     improvements are needed with respect to compliance with exercise
     reporting requirements.

Exercise Reporting Requirements
     The State Administrative Agency and the Urban Area Working Groups for
     the Phoenix and Tucson Urban Areas were unable to provide
     documentation to support that all After Action Reports and Improvement
     Plans for FEMA-supported exercises were completed and submitted to
     FEMA within 60 days. The Phoenix and Tucson Urban Area Working
     Groups are responsible for the performance aspects of the Urban Areas
     Security Initiative program. The subgrantee hosting the exercise is
     responsible for preparing and submitting the After Action Report and
     Improvement Plan to the respective Urban Area, but none of the
     subgrantees retained records documenting the completion of the program
     requirement to submit the After Action and Improvement Plans to FEMA.

     The Homeland Security Grant Program Guidance Application Kit for
     FYs 2007 to 2009 states that the exercises implemented with grant funds
     should be threat-based and performance-based, and should evaluate
     performance of critical prevention and response tasks required to respond
     to the exercise scenario. Guidance on conducting exercise evaluations and
     implementing improvement is defined in the Homeland Security Exercise
     and Evaluation Program (HSEEP) Volume II: Exercise Evaluation and
     Improvement. Grant recipients must report on scheduled exercises and
     ensure that an After Action Report and Improvement Plan are prepared for
     each exercise conducted with FEMA support (grant funds or direct
     support) and submitted to FEMA within 60 days following completion of
     the exercise.

     The Arizona Department of Homeland Security does not have procedures
     in place to ensure that After Action Reports and Improvement Plans are
     prepared. These reports are a critical management tool that documents
     weaknesses identified by exercises and provides a basis to track corrective
     actions needed to improve the first responders’ capability to respond to all
     hazard events. This could hamper FEMA, the State Administrative
     Agency and the Urban Area Working Groups’ ability to properly assess
     capability gaps and corrective actions needed to enhance the State’s first
     responder capabilities. Also, Urban Areas Security Initiative program
     resources could be wasted repeating exercises or conducting exercises that
     do not focus on the Urban Area’s preparedness deficiencies.




           The State of Arizona’s Management of Urban Areas Security

        Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                    Page 3
Recommendations
      We recommend that the Assistant Administrator, Grant Programs
      Directorate, direct the State Administrative Agency to:

      Recommendation #1: Submit After Action Reports and
      Improvement Plans for those exercises where it has not already
      done so, or question the costs associated with exercises for which
      the State Administrative Agency does not produce the required
      report.

      Recommendation #2: Develop and implement policies and
      procedures to prepare After Action Reports and Improvement
      Plans and submit those reports to FEMA within 60 days following
      completion of the exercise.

Management Comments and Auditors’ Analysis
      FEMA officials concurred with the recommendations. The
      officials said that the corrective actions outlined by the Arizona
      Department of Homeland Security in their response to this report
      sufficiently address the intent of both recommendations.
      According to FEMA, the State has verified its timely submission
      of all relevant After Action reports and Improvement Plans.

      State of Arizona officials did not agree with the nature of the
      finding reported. State officials said that all Exercise After Action
      Reports and Improvement Plans were submitted to FEMA. The
      officials also stated that they will implement enhancements to
      policies and procedures for the FY 2011 funding cycle to improve
      monitoring and tracking of Exercise After Action Reports and
      Improvement Plans. Specifically, the State will take the following
      actions:

               Request exercise hosts to post all exercises within 180 days
               of completion,
               Email copies of the reports to County, State, and FEMA
               Regional and headquarters officials, and
               Incorporate into the grant closeout process the validation of
               reports in subgrantee files.

      The actions taken by FEMA and the State are responsive to
      address the intent of recommendation 1, which is considered
      resolved and closed. The actions proposed by FEMA and the
      State, when fully implemented, will address the conditions

     The State of Arizona’s Management of Urban Areas Security
  Initiative Grants Awarded During Fiscal Years 2007 through 2009

                              Page 4
    identified during the audit. Recommendation 2 is considered
    resolved, and will remain open pending implementation of the
    proposed corrective actions beginning with the FY 2011 funding
    cycle.




   The State of Arizona’s Management of Urban Areas Security

Initiative Grants Awarded During Fiscal Years 2007 through 2009


                            Page 5

Appendix A
Purpose, Scope, and Methodology

                   The objective of this audit was to determine whether the State
                   distributed and spent Urban Areas Security Initiative grant funds
                   strategically, effectively, and in compliance with laws, regulations,
                   and guidance. The goal of this audit was to identify problems and
                   solutions in order to assist FEMA and the State to improve the
                   nation’s ability to prevent and respond to all hazards on a local as
                   well as a statewide level.

                   The scope of this audit included the plans developed by the State to
                   improve preparedness and all hazards response, the goals set
                   within those plans, the measurement of progress towards the goals,
                   and the assessments of performance improvement that result from
                   this activity. Further, the scope included the assessment of these
                   activities within the context of risk to determine if the State’s plans
                   produced strategic performance improvements related to the
                   highest areas of risk rather than merely producing improvements in
                   a broader sense.

                   Together, the entire Homeland Security Grant Program and its five
                   interrelated grant programs fund a range of preparedness activities,
                   including planning, organization, equipment purchase, training,
                   exercises, and management and administration costs. Because of
                   the interrelationship of these grant programs, all were considered
                   when evaluating the planning cycle and the effectiveness of the
                   overall grant program. However, only Urban Areas Security
                   Initiative funding, and equipment and programs supported by the
                   grant funding, were reviewed for compliance. State Homeland
                   Security Program grants were addressed in the Department of
                   Homeland Security (DHS) Office of Inspector General (OIG)
                   report “The State of Arizona’s Management of State Homeland
                   Security Grants Awarded During Fiscal Years 2004 through
                   2006,” OIG-08-99, September 2008.

                   The scope of the audit included the Urban Areas Security Initiative
                   grant awards for FYs 2007, 2008, and 2009 as shown in the
                   following table:




                  The State of Arizona’s Management of Urban Areas Security

               Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                           Page 6
Appendix A
Purpose, Scope, and Methodology

                                    Homeland Security Grant Program Awards
                                            FYs 2007 through 2009

                     Funded Activity        FY 2007         FY 2008       FY 2009        Total
                   Urban Areas
                                        $16,820,000        $16,315,500 $15,335,150     $48,470,650
                   Security Initiative
                   State Homeland
                                         $9,120,000        $13,400,000 $13,086,500     $35,606,500
                   Security Program
                   Law Enforcement
                                                             Not           Not
                   Terrorism Prevention $6,520,000                                      $6,520,000
                                                           Applicable    Applicable
                   Program
                   Citizen Corps
                                          $281,549           $291,932       $290,414     $863,895
                   Program
                   Metropolitan
                   Medical Response      $1,032,581         $1,284,884    $1,284,884    $3,602,349
                   System Program
                   Grand Total             $33,774,130     $31,292,316 $29,996,948     $95,063,394
                                                    Source: Federal Emergency Management Agency

                   Within the State of Arizona, the State Administrative Agency
                   subawarded Urban Areas Security Initiative funds to two urban
                   areas that consist of Tucson and its surrounding counties, cities and
                   towns, and Phoenix and its surrounding counties and cities; and
                   seven state agencies. In accordance with the audit guide, we
                   visited the following subgrantees:

                   State Agencies

                          Arizona Department of Agriculture
                          Arizona Department of Corrections
                          Arizona Department of Homeland Security (State
                          Administrative Agency)
                          Arizona Department of Public Safety
                          Arizona Department of Transportation
                          Arizona Government Information Technology Agency
                          Arizona Radiation Regulatory Agency

                   Tucson Urban Area

                          Marana Police Department
                          Northwest Valley Fire Department
                          Oro Valley Police Department
                          Pima County Office of Emergency Management
                          Pima County Sheriff’s Department
                          Sahuarita Police Department
                          Tucson Fire Department
                          Tucson Police Department
                  The State of Arizona’s Management of Urban Areas Security
               Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                           Page 7
Appendix A
Purpose, Scope, and Methodology

                   Phoenix Urban Area

                          Buckeye Police Department
                          Gilbert Fire Department
                          Gilbert Police Department
                          Glendale Fire Department
                          Glendale Police Department
                          Goodyear Fire Department
                          Goodyear Police Department
                          Maricopa County Sheriff’s Department
                          Mesa Fire Department
                          Mesa Police Department
                          Phoenix Office of Emergency Management
                          Phoenix Fire Department
                          Phoenix Police Department
                          Peoria Fire Department
                          Peoria Police Department
                          Scottsdale Fire Department
                          Surprise Fire Department
                          Tempe Fire Department
                          Tempe Police Department

                   The team reviewed a sample of the Urban Areas Security
                   Initiative’s expenditures representing 80% of the dollar value
                   expended for each grant year to determine the sufficiency of
                   internal controls.

                   To ensure compliance with DHS OIG sample selection
                   requirements, we selected 27 first responders and 7 state agencies
                   per grant year. Based on our review of the listing of subrecipients
                   (after totaling the expenditures per recipient for the grant year) we
                   selected 100% of the subrecipients in the Tucson Urban Area to
                   visit. For the Phoenix Urban Area, we selected 100% of the state
                   agencies and the 19 local recipients with the largest expenditures
                   for each grant year to visit.

                   We conducted this performance audit between October 2010 and
                   May 2011 pursuant to the Inspector General Act of 1978, as
                   amended, and according to generally accepted government
                   auditing standards. Those standards require that we plan and
                   perform the audit to obtain sufficient, appropriate evidence to
                   provide a reasonable basis for our findings and conclusions based
                   upon our audit objectives. We believe that the evidence obtained
                   provides a reasonable basis for our findings and conclusions based
                   upon our audit objectives.

                  The State of Arizona’s Management of Urban Areas Security
               Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                           Page 8
Appendix A
Purpose, Scope, and Methodology

                   Although this audit included a review of costs claimed, we did not
                   perform a financial audit of those costs. This was a performance
                   audit as defined by Chapter 1 of the Standards and included a
                   review and report of program activities with a compliance element.
                   Williams, Adley & Company-DC, LLP was not engaged to and did
                   not perform a financial statement audit, the objective of which
                   would be to express an opinion on specified elements, accounts, or
                   items.

                   Accordingly, Williams, Adley & Company-DC, LLP was neither
                   required to review, nor express an opinion on, the costs claimed for
                   the grant programs included in the scope of the audit. Had
                   Williams, Adley & Company-DC, LLP been required to perform
                   additional procedures, or conduct an audit of financial statements
                   in accordance with generally accepted auditing standards, other
                   matters might have come to their attention that would have been
                   reported. This report relates only to the programs specified and
                   does not extend to any financial statements of the State of Arizona.

                   While the audit work was performed and the report was prepared
                   under contract, the audit results are being reported by the DHS
                   Office of the Inspector General to appropriate FEMA and State of
                   Arizona officials.




                  The State of Arizona’s Management of Urban Areas Security

               Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                           Page 9
Appendix B
Management Comments to the Draft Report



                                                                      tJ.S. l)eplIrtlllcnt of llomelllnd Seeurif)
                                                                                     Washillgtoll, DC 20472




                                                                                        FEMA
                                            JAN 23 2012


        MEMORANDUM FOR:               Anne. L. Richards
                                      Assistant Inspector General for Audits
                                      Office of Inspector General

        FROM:                         David J. KaufmafiA / - -
                                      Director          ·vfV
                                      FEMA Office of Policy and Program Analysis

        SUBJECT:                      Comments to OIG Draft Report, The State qjArizo17a "s Management
                                      (~I'Urban AreasSccuri(v Initiative Grants Aww;ded During Fiscal
                                      Years 2007 through 2009


        Thank you for the opportunity to comment on the draft report. The findings in the report will be used
        to strengthen the eft'ectiveness and efficiency of how we execute and measure our programs. We
        recognize the need to continue to improve the process, including addressing the recommendations
        mised in this report. Our responses to the recommt.--ndations arc as follows:

        Recommendation #1: We reCOn1nK11d that the Assistant Administrator, Grant. Programs
        Directorate, direct the State Administrative Agency to submit outstanding After Action Reports and
        Improvement Plans for those exercises where it has not already done so or question the costs
        associat.ed \vith exercises f()r which the State Administrative Agency docs not produce the required
        report.

        Recommendation #2: \Ve recommend that the Assistant Administrator, Grant Programs
        Directorate, direct the State Administrative Agency to develop and implement internal polic-ies and
        procedures to prepare, track and account for the submissions of After Action Reports (AARS) and
        Improvement Plans (IPs) to FEMA., within the required number of days as stated in the applicable
        year's grant guidance and application kit. following completion of the exercise.

        FEl\lA Respouse: FE;\!A concurs with both recommendations.

         FEMA believes t'hat corr'-'Ctivc act.ions outlined by the J\rizona Department of Homeland Security
        (AZDOHS) in its response to the subject report sufficiently address tile inte-nt of both
        recommendations. The AZDOHS has verified its timely submission of all relevant A..:\Rs!£Ps into




                      The State of Arizona’s Management of Urban Areas Security

                   Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                    Page 10

Appendix B
Management Comments to the Draft Report




        the HSEEP Toolkit for the period 2002-2012. AZDOHS also indicated that it wil.! take the following
        actions to improve the monitoring and tracking of future AAR and lP reporting:

            •   Require exercise hosts/lead agencies to post nil exercises, documentation, and AARs/IPs via
                the HSEEP Toolkit \\·;lhin 180 days of conlpletion.
           •    E-mail copies of the rcports to the County Emergency Manager, AZDOHS. FEMA Region
                and DH he'ddquartcrs.

           •    AZDHS will obtain access to HSEEP in order to track compliance
           •    The AZDOHS closeout process will incorporate a validation to ensure that AARs!1Ps are
                includ(.--d in the subgrantee file.

           FEMA believes that these actions satisfy the intent of the recommendations and requests that
           both be resolved and closed.

           Again, we thank you for the opportunity to review your report. If you have furtht.'!' questions,
           please do not hesitate to call Gina A. Norton, FEMA Audit Liaison Office, 202-646-4287.




                     The State of Arizona’s Management of Urban Areas Security

                  Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                   Page 11

Appendix B
Management Comments to the Draft Report




                                          State of Arizona
                                  Department of Homeland Security


   Governor Janice K. Brewer                                                                                             Director Gilbert M, Orrantla




          December 16, 2011


          Ms. Jocelyn HIli
          Williams, Adley & Company
          1250 H. Street Suite 1150
          Washington, D.C. 20005

          Dear Ms. Hill:

          The Arizona Department of Homeland Security (AZDOHS) appreciates the opportunity to comment on this
          report. We appreciate the Office of the Inspector General's (OIG) interest in our programs. We have provided a
          response for the Audit recommendation.

                    Finding: Exercise Reporting Requirements: The State Administrative Agency and the Urban Area
                    Working Groups for the Phoenix and Tucson Urban Areas were unable to provide documentation to
                    support that 0/1 After Action Reports and Improvement Plans for FEMA-supported exercises were
                    completed and submitted to FEMA within 60 days.

          AZDOHS disagrees that this should be a finding; based upon the removal of the online access to the secure
          FEMA Preparedness Portal on September 14, 2009. This was the location where all of Arizona's 2007-2009 After
          Action Report (AAR)/lmprovement Plans (IP) were uploaded to FEMA. Neither FEMA nor the Phoenix and
          Tucson UASls have support documentation that these AARs were uploaded within the 90-day requirement
          because the Portal was dismantled. The Phoenix and Tucson UASls do have copies of FFY 2007-2009 VASI grant
          funded Exercise AAR/IPs.

          The FFY 2011 Grant Guidance states, "Grantees must develop After Action Report/Improvement Plans (AAR/IPs)
          following the completion of exercises funded under this program; the use of HSEEP is strongly encouraged.
          MR/IPs are to be submitted to hseep@dhs.gov. Grantees may use systems such as the HSEEP Corrective Action
          Program (CAP) for the tracking of corrective actions. Grantees may also share their AAR/IPs via lessons learned
          Information Sharing (lllS.gov)."

           However, per direction from the NED (National Exercise Division), Arizona began uploading the AAR/IP's to the
           HSEEP Toolkit where the exercise is required to be posted if Federal funds are being used to support the
           exercise. A comprehensive list of Arizona's exercises for 2002-2012 Is posted in the HSEEP Toolkit. All AAR's
           were uploaded within 90-days after the completion of exercises. Currently the HSEEP Toolkit does not have a
           Summary Report for State use to validate time of completion. The AZDOHS plans to submit a request to FEMA
           recommending they consider adding a field or columns in the HSEEP Toolkit to allow the State Administrative
           Agencies (SAA) the ability to track by funding source and to monitor timely submissions of AAR/IPs.




                                                     1700 West Washington Street Phoenix. Arizona 85007
                                   Office: (602) 542-7030               Fax: (602) 364-1521             www.azdQhs.gov




                                  The State of Arizona’s Management of Urban Areas Security

                               Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                                     Page 12

Appendix B
Management Comments to the Draft Report




       The AZOOHS will imp~nt the followins process en~ncemef"lts for the FfY2011 fundi,. cyde to improve
       monltorinl 'nd ~re Exercise AAA/lPs.
          •   Require exercise hosb/Il!ad i1gencies to post ,11 tllerdses, docuffleflL1tion..nd AAlVIPs
                 .... the HSEEP Toolkit within 90 days of completion of the event. ThiJ wil be the   pri~ry
                 ~thod used 10 tndt AAR completion.

             •   In Jddition to u~irc MRs in the HSEEP T~ ellefdse hosts will be requi~ lO
                 e~il  the AAR to the COunty Emergency Mill\ilief, HMA RtJion IX Exercise POe,.nd the
                 HSlEP@dhs,goy ema~ Jddtess per &filnt guidJlICl! with , toUrtny copy to the AZOOHS
                 Stntegic pt,nner.nd ADEM EJtert:r;e Officer.
             •   The AZOOHS SIntegic pt,/1IIll!D will ,Iso obtain JCCeSS to the HSEEP Toolkit in ord@orlO
                 tract c.ompliJnce with AAR report. . boise<! on the fundi<1& SOUIU! indicated.
             •   The AZOOHS w~nt doseout proc::ess will.1so lncorponte. wlidJtion to m~. copy
                 orthe MR/IPs ,re included in the $Ubgnntee file.

       We 'wKii!te the work completed by yolK office to .ssisI the St,te of Arlrof\il In improvlog the maf\ilgement of
       homelilnd SKUrity granu. AZOOHS is "tire this opportunity lO enhilnce its elll!rcise prognm 'nd reportinc
       requitemenu.

       P\e.se.dYise if we an provide further information ordarif1Ciltion.
       Sincerely.


      ~Jli)~
       Gilbert M. Ornntla
       Dlrect:or

       GMO!lIh

       cc:       Michael Sivev, Olreaor, Grants Management. Office of tile Inspector General
                 Anne t. Richards. Assistant Inspel;tor General for Audits. Offlce of the Inspector General




                           The State of Arizona’s Management of Urban Areas Security

                        Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                                            Page 13

Appendix C
Homeland Security Grant Program Background

                  The Homeland Security Grant Program provides federal funding to
                  help state and local agencies enhance their capabilities to prevent,
                  protect against, respond to, and recover from terrorist attacks,
                  major disasters, and other emergencies. The Homeland Security
                  Grant Program encompasses several interrelated federal grant
                  programs that together fund a range of preparedness activities,
                  including planning, organization, equipment purchase, training,
                  and exercises, as well as management and administration costs.
                  Programs include:

                       State Homeland Security Program provides financial
                       assistance directly to each of the states and territories to
                       prevent, respond to, and recover from acts of terrorism and
                       other catastrophic events. The program supports the
                       implementation of the State Homeland Security Strategy to
                       address the identified planning, equipment, training, and
                       exercise needs.

                       Urban Areas Security Initiative provides financial assistance
                       to address the unique planning, equipment, training, and
                       exercise needs of high risk urban areas, and to assist in building
                       an enhanced and sustainable capacity to prevent, respond to,
                       and recover from threats or acts of terrorism and other
                       disasters. Allowable costs for the urban areas are consistent
                       with the State Homeland Security Program. Funding is
                       expended based on the Urban Area Homeland Security
                       Strategies.

                  In addition, the Homeland Security Grant Program includes other
                  interrelated grant programs with similar purposes. Depending on
                  the fiscal year these include:

                       Metropolitan Medical Response System
                       Citizen Corps Program
                       Law Enforcement Terrorism Prevention Program
                       (through FY 2007)




                 The State of Arizona’s Management of Urban Areas Security
              Initiative Grants Awarded During Fiscal Years 2007 through 2009

                                         Page 14
Appendix D
Arizona Department of Homeland Security Organization Chart




                                                Source: Arizona Department of Homeland Security




                  The State of Arizona’s Management of Urban Areas Security

               Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                           Page 15

Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                   The State of Arizona’s Management of Urban Areas Security

                Initiative Grants Awarded During Fiscal Years 2007 through 2009


                                            Page 16

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
